Court of Appeals
of the State of Georgia
ATLANTA, March 31, 2020
The Court ofAppeals hereby passes the following order:
A20A1397. PATRICK KOROMA v. KATTILANHAM et al.
Patrick Koroma, the plaintiff in the underlying action, filed both an application
for discretionary appeal and a direct appeal from the trial court’s order denying his
motion for default judgment and motion to strike the defendants’ special appearance •
answer and responses to Koroma’s discovery requests. However, the order that
Koroma seeks to appeal is non-final, which leaves the case pending before the trial
court. See Ware v. Handy Storage, 222 Ga. App. 339, 339 (474 SE2d 240) (1996)
(the denial of a motion for default judgment is an interlocutory ruling which is not
directly appealable). This Court, therefore, dismissed Koroma s application for
discretionary appeal, noting that Koroma was required to use the interlocutory appeal
procedures—including obtaining a certificate of immediate review from the trial court
- to obtain appellate review. See Koroma v. Lanham, Application No. A20D0287
(dismissed Feb. 14,2020). See also OCGA § 5-6-34 (b). For the same reason, we lack
jurisdiction over this direct appeal, which is hereby DISMISSED. See Bailey v.
Bailey, 266 Ga. 832, 833 (471 SE2d 213) (1996); Ware, 222 Ga. App. at 339.
Court of Appeals of the State of Georgia
Clerk’s Office, Atlanta, 03/31/2020_________
I certify that the above is a true extract from _
the minutes of the Court of Appeals of Georgia.
Witness my signature and the seal of said court
hereto affixed the day and year last above written.
, Clerk.

APPENDIX A

w

MAILED

HCT ;; J 1010

SUPREME COURT OF GEORGIA
Case No. S20C1142

Washington State Prison
Mailroorn

October 19, 2020

The Honorable Supreme Court met pursuant to
adjournment.
The following order was passed.
PATRICK KOROMA v. KATTI LANHAM et al.
The Supreme Court today denied the petition for certiorari
in this case.
All the Justices concur, except Warren, J., not participating,
and McMillian, J., disqualified.
Court of Appeals Case No. A20A1397

SUPREME COURT OF THE STATE OF GEORGIA
Clerk's Office, Atlanta
I certify that the above is a true extract from the
minutes of the Supreme Court of Georgia.
Witness my signature and the seal of said court hereto
affixed the day and year last above written.

, Clerk

APPEND PC B

ID# 2020-0000347-CV
# EF1LED IN OFFICE
CLERK OF SUPERIOR COURT
COBB COUNTY, GEORGIA

TN THE SUPERIOR COURT OF COBB COUNTY
STATE OF GEORGIA
PATRICK KOROMA,

)
)
)
)
)
)

Plaintiff,
v.
KATTILANHAM, ET AL,
• Defendants.

■

19104134
JAN 02, 2020 10:38 AM
RrfboocQ Kooton. Ctom of Suporior Court
Cobb County, GoorgJb

CIVIL ACTION FILE
NO: 19-1-4134-52

)

)
)
)

ORDER DEN YING DEFAULT JUDGMENT AND MOTION TO STRIKE
On June 6, 2019, Plaintiff filed a Complaint against multiple defendants. Prior to
the time required for the filing of Defendants’ responsive pleadings, Plaintiff filed an
amended Complaint on July 9, 2019. Neither Complaint was verified. On August 8,
2019, Plaintiff filed a motion for Judgment by Default. On the same day, Defendants
filed a timely'Special Appearance Answer to Amended Complaint. Defendants filed, a
Rule 5.2 Certificate on September 27, 2019, certifying service of discovery responses.
Defendants filed a second Rule 5.2 Certificate on November 21, 2019, certifying service
of verifications of Defendant Keaton and Defendant Lanham’s interrogatory responses.
On October 22, 2019, Plaintiff moved to strike Defendants’ Special Appearance
Answer and tire responses to Plaintiffs Interrogatories and Requests for A.dmissions and
Production of Documents. In Iris Motion, Plaintiff asserts that the Special Appearance
Answer was untimely and that the responses were not verified as required by O.C.G.A §
9-11-11.1.
The Court finds that the Special Appearance Answer was timely filed in response
to the service.of Plaintiff s amended Complaint. As to. the responses to the discovery

APPENDIX " Cl

'n ' <

- .*•

requests, the Court finds first that O.C.G.A § 9-11-11.1 is inapplicable. Second,
Defendants filed a Rule 5.2 Certificate, signed by counsel, at the time of service of the
responses. Defendants subsequently filed a second Rule 5.2 Certificate, certifying
service of verifications of Defendant Keaton and Defendant Lanham’s Interrogatories.
Plaintiff argues that as the initial responses were not verified, they should be struck. The
Court finds that tire sanction of striking the responses would be too drastic under the
•circumstances, as the Court can see no harm as a result of failing to include the
verifications in .the initial, response. Compare Cannon v. Oconee County, 2019 Ga. App.
LEXIS 641 (Oct. 30, 2019) (county’s failure to provide verified discovery responses until
after expiration of statute of limitations impermissibly harmed plaintiff).
Accordingly, it is hereby ORDERED that Default Judgment is DENIED. Further,
it is ORDERED that Plaintiffs Motion to Strike is DENIED.
SO ORDERED, tins 2^_
\J
day of
¥■

, 20

Q

oMnn

A. GREGORYVboi^r,
Judge, Superior Court
Cobb Judicial Circuit

.

Additional material
from this filing is
available in the
Clerk's Office.

